Before the Committee on Transportation and Infrastructure
Subcommittee on Aviation
United States House of Representatives

For Release on Delivery
Expected at
2:00 p.m. EDT
                          Actions Needed to Meet
Wednesday
October 28, 2009          Expectations for the Next
CC-2010-001
                          Generation Air
                          Transportation System in
                          the Mid-Term
                          Statement of
                          The Honorable Calvin L. Scovel III
                          Inspector General
                          U.S. Department of Transportation
Chairman Costello, Ranking Member Petri, and Members of the Subcommittee:

We appreciate the opportunity to testify today on the Federal Aviation
Administration’s (FAA) Next Generation Air Transportation System (NextGen). As
you know, NextGen represents a transition from a ground-based air traffic control
system to a satellite-based air traffic management system. When fully implemented,
NextGen is expected to significantly enhance capacity, reduce delays, and provide
economic and environmental benefits through reductions in carbon emissions, fuel
consumption, and noise.

NextGen is a high-risk effort involving multi-billion dollar investments by both FAA
and industry. The problems we have reported on with NextGen prompted us to
identify NextGen as one of the Department’s top challenges. Last month, an RTCA 1
task force reported its findings on NextGen and made a number of recommendations
on what FAA needs to achieve in the near- and mid-term—actions that FAA endorsed
and are consistent with our work.

Today, I will discuss three areas: (1) challenges FAA faces in transitioning to
NextGen in the near- and mid-term, (2) observations on the findings in the task
force’s report, and (3) actions needed now for the advancement of NextGen goals.

In summary, the cost, schedule, and benefits for NextGen are uncertain. Our work
shows that a number of operational and management issues must be addressed to
successfully transition to NextGen and implement task force recommendations. The
findings of the task force are not only consistent with our work but also identify
several new areas that will require FAA’s attention, including adjustments to current
Agency plans and budgets. It is essential that FAA go beyond endorsing the task
force’s recommendations and develop plans to initiate action, make corresponding

1
    Organized in 1935 as the Radio Technical Commission for Aeronautics, RTCA, Inc., is a private, not-for-
    profit corporation that develops consensus-based recommendations regarding communications, navigation,
    surveillance, and air traffic management (CNS/ATM) system issues. It functions as a Federal Advisory
    Committee.


                                                                                                         1
changes to budgets and plans, and develop metrics for assessing progress and
measuring benefits.

I will discuss these issues in further detail.

OPERATIONAL AND MANAGEMENT CHALLENGES MUST
BE ADDRESSED TO SUCCESSFULLY TRANSITION TO
NEXTGEN

Over the past year, we have identified a number of operational and management
challenges FAA faces in implementing NextGen. A top priority will require making
fundamental changes in how FAA implements new navigation procedures—Area
Navigation (RNAV) and Required Navigation Performance (RNP)—which are key to
achieving NextGen’s benefits. 2 We also identified major management issues that
need to be addressed, such as establishing firm requirements that can translate into
cost and schedule baselines for NextGen capabilities and revamping the agency’s
Acquisition Management System. Until these challenges are addressed, FAA will be
unable to effectively manage NextGen or implement task force recommendations.

Maximizing RNAV and RNP Benefits
As we noted in July 2009, several areas require sustained management attention to get
RNAV and RNP navigation procedures on track and ultimately achieve the expected
economic and environmental benefits of NextGen.

First, we reported that air carriers have not widely used the new RNP procedures,
which rely heavily on laying RNP routes over existing routes. While this approach
has allowed the agency to meet its annual RNP production goals, they do not

2
    RNAV is a method of navigation in which aircraft use avionics, such as Global Positioning Systems, to fly
    any desired flight path without the limitations imposed by ground-based navigation systems. RNP is a form
    of RNAV that adds on-board monitoring and alerting capabilities for pilots; thus, allowing aircraft to fly
    more precise flight paths.



                                                                                                            2
maximize the benefits that can be achieved through RNP procedures. Further, FAA
does not track data that would allow it to determine which RNP procedures are being
used and why. In addition, we found that out-of-date air traffic policies on how to use
the new procedures at airports with parallel runways have precluded their use. For
example, absent updated policies, controllers at the Hartsfield-Jackson Atlanta
International Airport have yet to clear an aircraft for landing using the 10 RNP
procedures FAA implemented in May 2007.

We also reported that continuing operational concerns and insufficient training for
controllers and pilots have limited the use of RNAV/RNP procedures at some
airports. For example, at the Dallas/Fort Worth International Airport, pilots have used
incorrect RNAV departure waypoints and flown off the correct flight path.                                         To
mitigate this problem, FAA developed a process for pilots to read back the runway
assignment and first waypoint before taking off. While the process was implemented
at Dallas Fort Worth on June 1, 2009, NAS-wide implementation is pending
completion of a further safety study.

In addition, we noted that FAA has not clearly defined the role non-government third
parties will play in developing RNAV/RNP procedures, 3 and FAA program officials
and airlines disagree on the extent to which third parties should be used. FAA does
not plan to use third parties to help speed the adoption of RNP procedures for
NextGen. However, industry representatives are skeptical of FAA’s ability to deliver
the more complex procedures in a timely manner and continue to believe third parties
could help speed up the adoption of quality RNP procedures.

Moreover, FAA’s use of third parties to develop public procedures may not present a
sound business case. Third parties have not developed these in the past, and the
extent to which air carriers will hire them to do so is still unknown. It will depend on


3
    In 2007, FAA entered into agreements with two third parties to design, integrate, test, and validate public
    RNP procedures.


                                                                                                                   3
whether air carriers believe it is cost beneficial to pay third parties to develop public
procedures, which could potentially benefit their competitors.                                Third-party
development of special procedures, which are tailored to the requesting airline’s
specific needs, also presents challenges. Historically, FAA has approved special
procedures on a limited, case-by-case basis.                   RNAV/RNP program officials are
concerned that air carriers will increasingly request third parties to develop special
procedures—rather than rely on FAA’s public procedures—further increasing the
complexity of airspace management and the workload of air traffic controllers.

Making Business and Management Decisions to Move from Planning to
Implementation in the Mid-Term
FAA’s transition from planning to implementation of NextGen will be difficult.
Based on our reviews of FAA plans and discussions with agency officials and
stakeholders, we have identified five business and management issues that must be
addressed to reduce implementation risks.

First, FAA must continue to refine the NextGen mid-term architecture, establish
requirements, and make decisions about new and existing systems. In response to a
recommendation we made last year, FAA is developing a general blueprint for the
2018 time frame, which highlights more than 340 key decisions that must be made to
reach this mid-point milestone.               A number of these decisions involve existing
programs that will serve as “platforms” for NextGen and, as such, must be made in
the next 2 years. Modifications to existing systems, including the $2.1 billion Enroute
Automation Modernization (ERAM)4 effort, are expected to cost billions of dollars.
It is less certain today than it was when we testified in March 2009 how FAA will
realize NextGen’s capabilities. For example:


4
    ERAM a $2.1 billion program that provides new hardware and software for facilities that manage high-
    altitude traffic, and is a linchpin for the NextGen system. ERAM is expected to serve as a foundation for
    NextGen, so any schedule delays will affect the pace of introducing new capabilities.



                                                                                                           4
       FAA has been slow to make decisions outlined in its NextGen Mid-term
          Enterprise Architecture. Of the 51 decision points targeted for fiscal year
          2009, FAA only made 11 decisions, including 6 of 13 considered as high
          priority. For example, FAA made decisions for proceeding with a satellite-
          based precision landing system and navigation aids to support RNAV/RNP.
          However, FAA did not make decisions for enhancing an existing traffic flow
          management system or a new program for metering air traffic to increase
          arrivals and departures at high-density airports.

       FAA is still working on a “gap analysis” of the current system and the vastly
          different NextGen. FAA’s analysis thus far shows that major gaps exist with
          respect to automation—new capabilities that will allow controllers to better
          manage traffic. According to FAA, it may take an additional 1½ to 2 years
          from now to develop requirements for the mid-term.

       An analysis 5 sponsored by FAA’s Joint Planning and Development Office
          indicates that NextGen capabilities originally planned for 2025 could cost the
          Government and airspace users several times the current projected cost
          estimate of $40 billion. Further, it is likely that some of NextGen’s advanced
          automated air and ground capabilities will not be implemented until 2035 or
          later.

Second, FAA needs to assess the safety of new systems and procedures. A key
transition issue for NextGen is determining whether throughput at already congested
airports can be increased. This is particularly important for airports with complex
runway configurations, including closely spaced parallel or converging/intersecting
runways. Updated safety assessments are also needed to ensure unanticipated hazards
are not introduced, particularly during periods of low visibility.                      Another safety

5
    The analysis—is referred to as the NextGen portfolio or “trade space” analysis. The analysis began in
    October 2008, and interim results were available in May 2009. FAA is continuing to update and revise the
    analysis.


                                                                                                          5
concern involves the impact of “mixed equipage” where controllers will be expected
to manage aircraft with different capabilities and procedures.                             Assessing and
addressing the impacts of mixed equipage are important for several mid-term efforts,
including RNAV/RNP, data link communications for controllers and pilots, and
Automatic Dependent Surveillance-Broadcast (ADS-B). 6 As such, FAA needs to
develop plans to mitigate differences with aircraft equipage, including developing
effective training for controllers and pilots and adjusting existing air traffic control
systems. FAA may also have to segregate specific airspace for properly equipped
aircraft.

Third, FAA must manage NextGen capabilities as portfolios.                             This is important
because several systems, new procedures, and airspace changes funded through
different accounts will be required to work together to deliver benefits. For example,
to increase airport arrival rates, new procedures, changes to controller systems (in
facilities that manage high-altitude flights and airspace in the vicinity of airports), and
adjustments to airspace will be required. However, our work as well as an FAA
study 7 point out, FAA’s Acquisition Management System 8 was not designed for
managing NextGen investments as portfolios.                      Rather, FAA’s acquisition system
focuses on baselines and specific capital programs—not a collection of investments.
To effectively manage multiple NextGen efforts, FAA must follow through on its
plans to modify its system and clearly assign responsibility, authority, and
accountability for mid-term initiatives in its NextGen Implementation Plan.

Fourth, FAA must assess its ability to implement multiple capabilities in a given time
period and identify and address critical interdependencies. NextGen’s new systems
and procedures create extraordinary integration challenges. While FAA has taken

6
     ADS-B is a surveillance system that uses information from satellite-based systems to identify and track
     aircraft positions.
7
    “Independent Assessment of FAA Acquisition Management System,” April 22, 2008.
8
     FAA’s Acquisition Management System is the policies and procedures the Agency relies on to make major
     investments.



                                                                                                               6
some action to avoid complex integration issues, FAA and stakeholders need a firm
understanding of the interdependencies between systems, procedures, and training
programs needed to deliver NextGen capabilities. This is important given the fact that
approximately one-third of the controller workforce is composed of controllers in
training. Since 2004, we have issued a series of reports focusing on FAA’s programs
for developing the next generation air traffic controller workforce. 9 FAA is taking
steps to address our concerns, such as appointing a national director for training;
however, FAA lacks up-to-date programs to train controllers on new capabilities, such
as how to manage RNP equipped aircraft. FAA and the industry need to establish
realistic transition benchmarks that point to when new training (for controllers and
pilots), equipment (new avionics and ground systems), and procedures need to be in
place at specific locations.

Finally, FAA needs to secure the necessary skill sets and expertise to execute
NextGen.         In response to a recommendation we made in February 2007, FAA
commissioned the National Academy of Public Administration (NAPA) to assess the
skill sets needed for NextGen implementation. In its September 2008 report, NAPA
identified 26 competencies where FAA lacks both the skills and capabilities to
execute NextGen. 10           These include program management, software development,
contract administration, and systems engineering with an understanding of human
factors considerations. FAA has identified an additional 175 staff positions that it
plans to fill in 2009 and another 162 positions for 2010 to address identified skill
requirements to support NextGen.




9
     Over the next decade, FAA plans to hire and train nearly 15,000 new controllers to replace those who are
     retiring,
10
     Report by a panel of the National Academy of Public Administration, “Identifying the Workforce to
     Respond to a National Imperative - The Next Generation Air Transportation System (NextGen),” September
     2008.


                                                                                                           7
RTCA TASK FORCE FINDINGS UNDERSCORE OUR WORK
To help chart a course for NextGen, FAA tasked RTCA to forge a consensus on
NextGen’s top priorities in the mid-term. In September, the task force reported its
findings, which emphasized what can be achieved in the next 3 to 5 years. Overall,
RTCA’s findings and recommendations are consistent with our work and identify
additional areas that need attention.      RTCA also raises policy questions that
decisionmakers will need to address in further detail.

Our Findings and Recommendations Cut Across Most RTCA Areas of
Concern
The task force made 28 recommendations to FAA aimed at leveraging equipment
already on aircraft and new procedures, enhancing information sharing among FAA
and airspace users, and reducing delays in the air and on the ground. The report
reflects the industry’s perspective and focuses on achieving a rapid return on FAA
and industry investments.       The task force’s report represents the first time
stakeholders have committed to near- or mid-term efforts. Table 1 summarizes the
task force’s recommendations for the mid-term that parallel our work and those that
highlight additional areas of concern.




                                                                                 8
Table 1. Key RTCA Task Force Recommendations for NextGen Mid-Term

Recommended             Description
Capability
Recommendations consistent with OIG conclusions
Runway Access           Improve the use of converging or closely spaced runways during low
                        visibility conditions. Candidate airports include JFK, Las Vegas, and
                        Newark.
Metroplex               Improve the capacity of airspace that affects multiple airports near
Airspace                large metropolitan areas, including Chicago, New York/New Jersey,
                        and Southern California.
High Altitude           Improve high altitude flights by, among other things, increasing the
Cruise                  availability of real-time data on the status of airspace used jointly by
                        civilian and military aircraft. The first candidate location is Minneapolis
                        Center.
Access to the           Improve service at smaller airports by implementing more precision
National                approaches and departures as well as expansion of ways to track
Airspace System         aircraft in non-radar airspace. Full range of candidate locations is still
                        under development.
Additional recommendation made by task force
Airport Surface         Improve the management of airport taxiways, gates and parking areas
Operations              by revamping systems for sharing information between FAA, airlines
                        operations centers and airports. Candidate locations include all major
                        airports beginning with the New York area airports.
Source: OIG Analysis of Task Force Report


Our findings and recommendations cut across four of the five areas RTCA has
targeted: runway access, metroplex airspace, high altitude cruise, and access to the
national airspace system. For example, the task force places considerable emphasis
on the need to shift from the quantity of RNAV/RNP to the quality of the routes that
are not overlays of existing procedures. The task force parallels our work on the need
to address exactly how various technologies and procedures can unlock congested
airports and improve arrival rates under all weather conditions. In addition, the task
force emphasized the need to manage NextGen capabilities as portfolios and establish
clear lines of authority, responsibility, and accountability. While we recognize the
need for an integrated approach, the task force takes it a step further and advocates



                                                                                                      9
such an approach for specific locations. For example, the task force recommends
establishing joint FAA/industry “tiger teams” with expertise on controller, pilot,
airspace redesign, and safety issues that focus on the quality of procedures at specific
airports.

The RTCA findings and recommendations identify a number of new areas for FAA’s
attention. For example, the task force calls for a major re-evaluation of airport surface
operations to enhance use of taxiways, gates, and airport parking areas. FAA’s major
modernization efforts for airports have historically focused on improving safety, not
efficiency. Moreover, the task force calls for the deployment of capabilities at major
metropolitan areas or at a regional level rather than just a nationwide deployment of
systems.

Implementing RTCA’s recommendations will require FAA to adjust budgets and
plans, as well as establish milestones for initiatives. In addition, FAA will face other
challenges—or barriers—in implementing RTCA’s recommendations for NextGen.

       The task force’s recommendations focus on first steps—not the full range of
           technologies in FAA’s NextGen plans. As a result, there is still no consensus
           on major NextGen initiatives—most notably “ADS-B In” 11 and how to achieve
           the air-to-air benefits of the technology and new cockpit displays. The task
           force viewed “ADS-B In” as a high cost investment with a very long payback
           period. As we noted in March 2009, airspace users have raised legitimate
           concerns about costs and a lack of clearly defined benefits with this new
           satellite-based technology.

       To implement task force recommendations aimed at better using existing
           runways, FAA will need to conduct updated safety assessments for using

11
     “ADS-B In” refers to the receipt and display of traffic information in the cockpit allowing pilots to “see and
     avoid” other aircraft operating in their proximity. This is where the most benefits from ADS-B are expected,
     particularly with respect to enhancing capacity at congested airports. However, to use it, it requires a cockpit
     display. This display would also allow pilots to make better use of runways in bad weather.


                                                                                                                 10
      complex runway configurations including, closely spaced and parallel runways
      at Dallas/Love, JFK, and Minneapolis St. Paul airports.

    FAA also needs to address longstanding concerns about terminal
      modernization—the equipment controllers rely on to manage aircraft in the
      vicinity of airports. For example, software enhancements will be needed to
      allow controllers to merge and space aircraft to maximize the benefits of
      RNAV/RNP.        However, FAA has only begun planning and developing
      requirements and therefore, these improvements have not been baselined.
      Without making adjustments to terminal systems, FAA will not be able to
      maximize benefits for RNAV/RNP and ease capacity constraints in airspace
      surrounding major metropolitan areas.

RTCA Recommendations Focus Attention on NextGen Policy Questions
To implement its recommendations for the near-term, RTCA assumed that
government sources of funding would not be forthcoming. However, the task force
report noted that incentives would be needed to advance NextGen, and discussed
several alternatives, such as providing financial incentives possibly in the form of
low-interest loans, direct subsidies for equipment, or income tax credits. The concept
of a “NextGen Equipage Bank” was also discussed along with technologies that could
be considered for financial assistance. However, the task force did not answer how
much money would be needed or when.

Whether incentives should be used is a policy decision for Congress. However, there
needs to be a clear understanding of exactly how the incentives would be used,
especially since FAA has not finalized the requirements for key capabilities, such as
the satellite-based systems for surveillance and new cockpit displays.         A full
consideration of the strengths and weaknesses of various incentives as well as their
timing and potential impact is critical. Cost sharing arrangements have merit because




                                                                                   11
risks are shared between Government and industry. If incentives are used, they must
be properly designed to achieve their objectives at a minimal cost to taxpayers.

A related policy concern focuses on a proposed “best-equipped, best-served” concept
as a way to advance NextGen. The concept, first mentioned in FAA’s January 2009
NextGen Implementation Plan, gives preferential treatment to airspace users equipped
with new systems. Historically, however, FAA’s policy for providing air traffic
control services has been “first come, first served.” A best-equipped, best-served
policy would, therefore, represent a significant change to how traffic is managed. The
details of such a policy would need to be developed to ensure equity among users and
implementation at specific locations.

ACTIONS NEEDED TO SET REALISTIC EXPECTATIONS
FOR NEXTGEN
NextGen is an important initiative to enhance capacity, reduce delays, and
fundamentally change the way air traffic is managed in the United States. Yet, the
costs, benefits, and milestones for the mid-term remain uncertain. Our work shows
that FAA has not fully laid the groundwork for key capabilities, such as RNAV/RNP,
or established firm requirements for existing or new acquisitions that can translate
into reliable cost and schedule baselines.

A considerable level of oversight is needed for NextGen. At the request of the
Chairman and Ranking Member, we will monitor FAA’s progress in responding to
the task force’s recommendations and corresponding impacts on Agency budgets and
plans. There are several actions needed now to set realistic expectations for NextGen.
Specifically, FAA must

 develop plans to initiate action and establish a 5-year funding profile for the
   NextGen mid-term;




                                                                                   12
 develop metrics for assessing progress, measuring benefits, and identifying
   problems to put timely corrective actions in place;

 refine how a “best equipped, best served” policy could be implemented; and

 develop and implement a strategy for linking near- and mid-term efforts with
   NextGen long-term plans for its major transformational programs, such as ADS-B.

That concludes my statement, Mr. Chairman. I would be happy to address any
questions you or other members of the Subcommittee may have.




                                                                               13
